Audit Report




OIG-09-016
Management Letter for Fiscal Year 2008 Audit of the
United States Mint’s Financial Statements


December 8, 2008




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 8, 2008


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                 Michael Fitzgerald /s/
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2008 Audit of the
                                  United States Mint’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the United States Mint’s (Mint) Fiscal Year 2008 financial statements.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of the Mint as of September 30, 2008, and for the year then ended.
            The contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operation that were identified during the audit but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Donna Joseph, Manager, Financial Audits,
            at (202) 927-5784.

            Attachment
THE UNITED STATES MINT

     Management Letter

      Fiscal Year 2008
                                    THE UNITED STATES MINT
                                   Fiscal Year 2008 Management Letter
                                            Table of Contents


Transmittal Letter                                                                         2

Appendix A – Fiscal Year 2008 Management Letter Comments                                   4

Asset Management

     A-1    Controls Over Asset Retirements Should be Strengthened                         4
     A-2    Controls Over Property, Plant and Equipment Inventory Should be Strengthened   4

Human Resource Management

     B-1    Controls over Reconciliation Reviews Should be Strengthened                    4

Inventory Management

     C-1    Controls over Numismatic Inventory Should be Strengthened                      5
     C-2    Controls over Inventory System Access Should be Strengthened                   5

Procurement

     D-1    Controls over Accounts Payable Should be Strengthened                          5

Appendix B – United States Mint’s Response to Management Letter Comments FY 2008           7

Appendix C – Status of Prior Year Management Letter Comments                               8




                                                    1
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




December 3, 2008

Inspector General
United States Department of the Treasury
740 15th Street, NW, Suite 600
Washington, DC 20220

Director
The United States Mint
801 9th Street, NW
Washington, DC 20001

Gentlemen:

We have audited the financial statements of the United States Mint (Mint) for the years ended September 30,
2008 and 2007, and have issued our report thereon dated December 3, 2008. In planning and performing our
audits of the Mint’s financial statements, we considered the Mint’s internal control over financial reporting, in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial statements,
but not for expressing an opinion on the effectiveness of the Mint’s internal control. Accordingly, we do not
express an opinion on the effectiveness of the Mint’s internal control.

During our fiscal year 2008 audit of the Mint’s financial statements, we noted two matters involving internal
control over financial reporting and its operation that we considered to be significant deficiencies under standards
established by the American Institute of Certified Public Accountants. In our Independent Auditors’ Report on
Internal Control Over Financial Reporting, dated December 3, 2008, we reported that we considered the findings
related to inventory tracking and open obligation review to be significant deficiencies.

Our audit procedures were designed primarily to enable us to form an opinion on the Mint’s financial statements,
and therefore, may not bring to light all weaknesses in internal control over financial reporting that exist.
However, we also take this opportunity to share our knowledge of the Mint, gained during our work, to make
comments and suggestions that we hope can be useful to you.

Although not considered to be significant deficiencies, we noted certain matters involving internal control and
other operational matters, which are presented in Appendix A, for your consideration. These comments and
recommendations, all of which have been discussed with the appropriate members of management, are intended
to improve the Mint’s internal control or result in other operating efficiencies. We have not considered the Mint’s
internal control since the date of our report. The Mint’s response to our comments and recommendations are
presented in Appendix B. Appendix C presents the status of prior year management letter comments.

We appreciate the courteous and professional assistance that the Mint’s personnel extended to us to complete our
audit timely. We would be pleased to discuss these comments and recommendations with you at any time.




                                                                          2
                                       KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                       member firm of KPMG International, a Swiss cooperative.
This communication is intended solely for the information and use of the Mint’s management, the United States
Department of the Treasury’s Office of Inspector General, the U.S. Government Accountability Office, Office of
Management and Budget, and the U.S. Congress, and is not intended to be and should not be used by anyone
other than these specified parties.

Very truly yours,




                                                      3
                                                                                                      Appendix A

                                        THE UNITED STATES MINT
                                Fiscal Year 2008 Management Letter Comments


Asset Management

A-1 Controls Over Asset Retirements Should be Strengthened

Assets that are deemed to have reached the end of their useful life and/or are no longer in service, should be
properly reported. The United States Mint policy did not require assets that did not have bar coded property tags
to be reported on the standard asset retirement form. The asset retirement form fully identifies the asset and by
requiring signature, the form documents the Property Manager’s approval of the action.

During our Asset Management test work we noted that for 5 of 12 asset retirements from the interim sample, the
Mint did not complete the retirement form that had to be signed by the Property Manager for approval.

We recommend that Mint update policies and procedures for the retirement of assets to ensure that retirement
forms are completed for all assets retired and that the forms are retained for examination for a reasonable time
period after the retirement transaction.

A-2    Controls Over Property, Plant and Equipment Inventory and Accountable Property Should be
Strengthened

The Mint performed an extensive physical inventory of property, plant and equipment and accountable property
at all facilities during fiscal year 2008. Based on the results of the physical inventory, we noted that
improvement is still required to ensure that all property is adequately safeguarded and properly accounted for.
Specifically, we noted the following:

•   Thirty-two (32) accountable property items physically inspected were received after the inventory had begun
    and were not included in the initial reports from the Asset Management Module of Oracle. These items of
    accountable property were not adequately identified as reconcilable items in a timely fashion.
•   The inventory report shows 61 accountable property items and one (1) fixed asset as missing. Although
    follow-up identified some of the items and specifically the fixed asset was determined to be an error in taking
    inventory, the Mint did not perform a timely reconciliation of the inventory documenting the disposition or
    status of these assets.

We recommend that the Mint:

•   Ensure that fixed assets and accountable property items are properly and timely recorded in the asset
    management system.
•   Ensure that all assets with barcodes are scanned as part of the inventory or documented as a reconciling item
    with an explanation of the circumstances.

Human Resource Management

B-1 Controls over Reconciliation Reviews Should be Strengthened

The Mint Headquarters accounting did not have a process in place to review payroll reconciliation (which is one
part of the overall cash reconciliation) prepared by Administrative Resource Center (ARC) during fiscal year
2008. Also, the Mint did not update their policies and procedures regarding the reconciliation of cash to reflect
the review of payroll reconciliations prepared by ARC.
                                                        4
                                                                                                     Appendix A

                                         THE UNITED STATES MINT
                                  Fiscal Year 2008 Management Letter Comments


We recommend that the Mint update their policies and procedures regarding the reconciliation of cash to include
procedures for the review of payroll reconciliations prepared by ARC. The Mint should also implement a review
of the payroll reconciliation prepared by ARC as a part of the monthly reconciliation of cash.

Inventory Management

C-1 Controls over Numismatic Inventory Should be Strengthened

We noted weaknesses in internal controls related to Numismatic inventory, specifically we noted:
•     A Standard Operating Procedure (SOP) for the Numismatic physical inventory count does not exist.
•     Lack of management review related to entering standard cost of new products in the system.
•     Improper classification of damaged inventory as accounts receivable instead of raw material inventory.
We recommend that Mint management implement the following recommendations to correct the condition noted
above:

•     Implement an inventory SOP for Numismatic Inventory.
•     Implement a policy to timely review standard cost entered in the system.
•     Ensure proper accounting treatment for unusual transactions.

C-2       Controls over Inventory System Access Should be Strengthened

Although the Mint has properly designed Information Technology Controls related to the additions and deletions
of users to the financial reporting system, we noted weaknesses in management’s review of users’ access to the
inventory module. Specifically, we noted that some users had access to the inventory module who have no need.
Mint does not have a SOP for management’s review of user access levels.

We recommend that Mint Management develop and implement an SOP requiring management review of user
access controls in the inventory system for ensuring users have the proper system access.

Procurement

D-1       Controls over Accounts Payables Should be Strengthened

The Mint is not following their SOP related to the accrual and review of Account 211002, Accounts Payable
Received but Not Invoiced. Specifically, we noted the following:

•   The Mint is not consistently applying its SOP for Accounts Payable across all the facilities. At most
    facilities, accruals are created at the end of each month and reversed at the beginning of the next month.
    However, at some facilities instead of reversing the accruals at the end of the next month, the accrual is
    adjusted to the balance needed for that month.
•   The Mint is not performing a timely review of the balance in account 211002 and the related open obligation
    to ensure that the accounts payable and open obligations are properly stated. We noted that liabilities were
    recorded for goods/services already paid for.


                                                         5
                                                                                                      Appendix A

                                         THE UNITED STATES MINT
                                 Fiscal Year 2008 Management Letter Comments


We recommend Mint management enforce compliance at all facilities with the SOP for Accounts Payable to
ensure liabilities are accrued properly and accurately. The Mint should also ensure that the balance in account
211002 is reconciled so that liabilities and related open obligations are not recorded for goods or services already
paid.




                                                         6
                                                                            Appendix B




                                    December 3, 2008



KPMG LLP
2001 M Street, N.W.
Washington, DC 20036

Ladies and Gentlemen:

We have reviewed the fiscal year 2008 draft management letter. The United States Mint
management generally concurs with the conditions reported and will review the noted
conditions and analyze the recommendations to develop corrective action plans to
address the issues. While the final resolution may not specifically follow the stated
recommendation, we will, in consultation with you and the Treasury Office of Inspector
General, ensure that the corrective action will resolve the reported concern.

                                    Sincerely,




                                    Patricia M. Greiner
                                    Associate Director/Chief Financial Officer
                                    United States Mint




                                           7
                                                                                            Appendix C

                                  THE UNITED STATES MINT
                          Status of Prior Year Management Letter Comments
                                Fiscal Year 2008 Management Letter


        Fiscal Year 2007 Management Letter Comment                       Fiscal Year 2008 Status
Inventory Management
  A-1     Controls over Reconciliation Reviews Should be Closed.
          Strengthened
  A-2     Controls over Quarterly Physical Inventory Closed.
          Procedures at Philadelphia Should be Strengthened
          Controls over Quarterly Physical Inventory Closed.
  A-3
          Procedures at Denver Should be Strengthened

  A-4     Physical Inventory Procedures at West Point Should Closed.
          be Strengthened
Asset Management
  B-1     Controls Over Asset Retirements Should be            Repeated: See fiscal year 2008 revised
          Strengthened                                         comment at A-1.
          Controls Over Property, Plant and Equipment Should   Closed.
  B-2
          be Strengthened
          Controls Over Property, Plant and Equipment          Repeated: See fiscal year 2008 revised
  B-3
          Inventory Should be Strengthened                     comment at A-2.
Revenue Generation and Collection
  C-1  Controls Over the Preparation of Shipping Documents Closed.
       Should be Strengthened
        Controls Over the Sign-off of Shipping Documents Closed.
 C-2
        Should be Strengthened
Human Resource Management
  D-1     Controls Should be Developed for Monitoring Payroll Closed.
          Processed by Service Providers
  D-2     Controls over Reconciliation Reviews Should be Repeated: See fiscal year 2008 revised
          Strengthened                                   comment at B-1.
Financial Reporting
  E-1     Standard   Operating     Procedures   Should   be Closed.
          Implemented for Heritage Assets




                                                 8
